                                                       National Railroad Passenger Corporation
                                                       Office of Inspector General
                                                       10 G Street N.E.
                                                       Washington, DC 20002




For Immediate Release – August 11, 2010


   AMTRAK OFFICE OF INSPECTOR GENERAL ANNOUNCES SENTENCING OF
            FORMER PHYSICIAN FOR HEALTH CARE FRAUD


       Sushil Sheth, a cardiologist, who surrendered his medical license, was sentenced to five

years in federal prison for stealing approximately thirteen million dollars from Medicare and

more than thirty other public and private health care insurance programs, including one at

Amtrak, over roughly five years, Amtrak Inspector General Alves announced today. Sheth

provided false information to Medicare and other insurers to receive millions of dollars for

medical services which were never rendered to patients. Sheth used the fraud proceeds to live a

lavish lifestyle, purchasing a suburban mansion, property in Arizona, luxury automobiles, and

investing in various venture capital opportunities.

       Sheth used his hospital privileges to access and obtain information about patients without

their knowledge or consent. He then hired individuals to bill Medicare and other insurance

providers for medical services that he purportedly rendered to patients whom he knew he never

treated. Typically waiting almost a year after the treatment was purportedly provided, Sheth

submitted more than 14,800 false claims for reimbursement for providing the highest level of

cardiac care requiring hands on treatment in an intensive care unit on multiple days during

patients’ hospital stays. Sheth regularly submitted claims seeking payment that, when added

together, had him providing more than 24 hours of medical services and treatment in a single

day. Sheth falsely billed Amtrak $591, 285 for critical cardiac care services that were not
rendered. The investigation was conducted by a multi-agency task force that included the FBI

and numerous Offices of Inspectors General and was prosecuted by an Assistant United States

Attorney in Chicago.

       Sheth was also ordered to pay restitution totaling approximately $13 million and he

agreed to forfeit property and funds totaling more than $11.3 million that the government seized

from him. As part of Sheth’s sentencing, he was ordered to pay restitution to Amtrak. “Health

care fraud is one of our highest investigative priorities. We will work with Amtrak to protect and

maintain the integrity of its health care program”, said Amtrak Assistant Inspector General for

Investigations Adrienne Rish.



Contact: Adrienne Rish
Tel: 202-906-4534
E-Mail: Adrienne.Rish@Amtrak.com

To learn more about Amtrak OIG visit www.AmtrakOIG.gov or Amtrak at
www.Amtrak.com
